OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/RWANDA’S
IMPLEMENTATION OF THE
PRESIDENT’S MALARIA
INITIATIVE

AUDIT REPORT NO. 4-696-12-003-P
NOVEMBER 16, 2011




PRETORIA, SOUTH AFRICA
Office of Inspector General


November 16, 2011

MEMORANDUM

TO:                  USAID/Rwanda Mission Director, Dennis Weller

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID/Rwanda’s Implementation of the President’s Malaria Initiative
                     (Report No. 4-696-12-003-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them as appropriate.
Management comments have been included in their entirety in Appendix II.

This report includes one recommendation to strengthen USAID/Rwanda’s malaria program.
Based on management’s comments on the draft report, a management decision has been
reached on that recommendation. Please provide the Office of Audit Performance and
Compliance Division with the necessary documentation to achieve final action.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Cooperation Between USAID and National Program Helped Reduce Malaria
     Deaths................................................................................................................................... 4

     Beneficiaries Were Unaware of the U.S. Government’s Role in Malaria
     Interventions ......................................................................................................................... 6

Evaluation of Management Comments.................................................................................... 8

Appendix I – Scope and Methodology ..................................................................................... 9

Appendix II – Management Comments .................................................................................. 13




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
FY              fiscal year
JSI             John Snow Inc.
NMCP            National Malaria Control Program
PMI             President’s Malaria Initiative
PSI             Population Services International
SUMMARY OF RESULTS
Each year malaria afflicts 300 to 500 million people worldwide, resulting in 1 to 2 million deaths.1
In Rwanda, the entire population of over 11 million is at risk of infection, with transmission most
intense in the eastern and southwestern parts of the country.2 To help mitigate this risk, in
2007 the U.S. Government adopted Rwanda as a focus country to benefit from the President’s
Malaria Initiative (PMI), a 5-year, $1.2 billion initiative led by USAID and implemented with the
Centers for Disease Control and Prevention and others. PMI aims to reduce malaria-related
mortality in each of the focus countries by 50 percent by reaching 85 percent of the most
vulnerable groups—children under 5 and pregnant women—with proven preventive and
therapeutic interventions. These interventions include insecticide-treated bed nets (bed nets),
artemisinin-based combination therapy (combination drugs) to treat malaria, intermittent
preventive treatment for pregnant women, and indoor residual spraying (spraying) with
insecticides to kill mosquitoes that spread malaria.

In Rwanda, the USAID mission has been working with the National Malaria Control Program
(NMCP) since fiscal year (FY) 2007 to determine how PMI funds can best support the national
system. In FY 2010, PMI supported indoor residual spraying; the procurement and distribution
of bed nets and lab equipment; the packaging of combination drugs; community outreach; case
management; epidemic surveillance and response; and technical assistance activities.
USAID/Rwanda’s PMI program does not currently support the procurement of combination
drugs—which the Government of Rwanda procures through grants from the Global Fund to
Fight AIDS, Tuberculosis and Malaria (the Global Fund)—or the intermittent preventive
treatment of malaria in pregnancy, which Rwanda discontinued because of increasing
resistance and decreasing malaria prevalence. However, the program does support other
aspects of the prevention and treatment of malaria in pregnancy, including the purchase of iron
tablets for pregnant women and the procurement of insecticide-treated nets (shown below) for
distribution through prenatal care visits.




Bed nets arrive at health centers like this one in Kirehe District before being distributed to residents,
who hang them as shown at right. (Photos by Office of Inspector General, June/July 2011)

1
  National Institute of Statistics (Rwanda), Ministry of Health (Rwanda), and Macro International Inc.
2008. Rwanda Service Provision Assessment Survey 2007.
2
  United Nations World Health Organization. World Malaria Report 2010.


                                                                                                       1
In FY 2010, the USAID mission in Rwanda implemented PMI activities through partnerships with
13 organizations. This audit focused on activities implemented by the three partners listed in
Table 1, which address the main PMI interventions that USAID funds and accounted for
approximately 73 percent of the mission’s malaria portfolio in FY 2010.

                                    Table 1. Audited Programs

     Implementing Partner      Program Description           Amount        Award Type and Dates
                                                           Budgeted for
                                                          PMI in FY 2010
                                                                ($)
                              JSI’s DELIVER PROJECT
                              procures bed nets and
                                                                           Task Order
    John Snow Inc. (JSI)      other commodities for the     3.7 million
                                                                           April 2007—April 2012
                              prevention and treatment
                              of malaria.
                              PSI’s Behavior Change
                              and Social Marketing
                              Project primarily                            Cooperative Agreement
    Population Services
                              transports bed nets for       1.6 million    January 2008—January
    International (PSI)
                              distribution and conducts                    2013
                              behavior-change
                              activities.
                              RTI’s indoor residual
                                                                           Task Order
                              spraying program targets
    RTI International (RTI)                                 6.6 million    September 2006—
                              sectors identified by
                                                                           September 2014
                              NMCP.

The objective of the audit was to determine whether USAID/Rwanda’s implementation of PMI
was on schedule to achieve its main goal of reducing malaria-related deaths by 50 percent.
Though not perfectly aligned with the FY 2007 start of the PMI program, the goal was to see this
reduction over the 5-year period between the 2005 and 2010 Demographic and Health Surveys.

The audit determined that the PMI program in Rwanda was on schedule to achieve its goal.
Most notably, preliminary results from the 2010 Demographic and Health Survey show a
50 percent reduction in all-cause mortality for children under 5, from 152 to 76 deaths per 1,000
live births.3 Further, the following achievements highlight some of the progress toward reducing
the malaria burden in Rwanda:

      According to Rwanda’s Ministry of Health, malaria deaths reported by district hospitals fell
      from 1,445 in 2005 to 670 in 2010—a reduction of 54 percent.

      Ownership of bed nets has increased. For example, in 2005, only 18 percent of households
      owned a bed net; in 2010, that share had increased to 83 percent, and the majority of nets
      owned were insecticide treated.4

      Health center staff reported a decrease in confirmed cases between 2010 and 2011,

3
  As noted in the Lantos-Hyde United States Government Malaria Strategy 2009-2014, changes in all-
cause mortality in children under 5 is one of the measurements used to evaluate whether mortality
reduction goals have been achieved.
4
  Rwanda Demographic and Health Survey 2010. Preliminary Report, July 2011.


                                                                                                   2
   following the implementation of malaria prevention activities funded by PMI, the Global
   Fund, and the Rwandan Government. At Nasho Health Center, for example, confirmed
   malaria cases fell from 393 in May 2010 to 190 in May 2011. Similarly, at Nyanza Health
   Center, malaria cases declined from 50–100 per month to 5–10 per month.

Besides noting the achievements highlighted above, the audit found that:

   Cooperation between USAID and NMCP helped reduce malaria deaths (page 4).

   Beneficiaries were unaware of the U.S. Government’s role in malaria interventions (page 6).

The report recommends that USAID/Rwanda:

1. Determine and document, in writing, its specific objectives for branding and marking within
   Rwanda’s President’s Malaria Initiative portfolio and update the current branding and
   marking plans if they do not currently achieve those objectives (page 7).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of management
comments is included on page 8 of the report.




                                                                                             3
AUDIT FINDINGS
Cooperation Between USAID and
National Program Helped Reduce
Malaria Deaths

The PMI program in Rwanda was on schedule to achieve its goal of reducing malaria deaths. In
addition to the 50 percent reduction in all-cause mortality for children under 5 noted above, data
shows that the overall malaria incidence is decreasing (as shown in the following figure).

                   Trends of Malaria Incidence, 2001 to 2010 (unaudited)*




            Source: Rwanda Malaria Program Performance Review 2011.

            * According to the World Health Organization, a nationwide seasonal
            resurgence of malaria cases occurred during both the 2008–2009 and 2009–
            2010 malaria seasons. The resurgence of uncomplicated outpatient malaria
            cases was greater than that of severe malaria cases and deaths, and levels
            were again following a decreasing trend by 2010.

USAID/Rwanda, as one of two principal donors working to reduce malaria-related deaths in
Rwanda, helped to achieve the progress noted above by working closely with NMCP to support
specific activities that contributed to the country’s desired outcomes. The major activities
supported by USAID/Rwanda in FY 2010 are summarized in Table 2.




                                                                                                4
                  Table 2. Summary of USAID/Rwanda FY 2010 PMI Support

                Outcome(s) Desired by FY 2012                            Supporting USAID/Rwanda
                                                                                FY 2010 Activity
                                                                     Purchase of 388,000 insecticide-
                                                                     treated bed nets worth $2.6 million*
  At least 90 percent of households will possess at least one
                                                                     Distribution of 970,414 insecticide-
  insecticide-treated bed net; 80 percent at least two
                                                                     treated bed nets to health facilities in
                                                                     11 districts*
  At least 85 percent of children under 5 and pregnant women
                                                                     Support for information, education,
  will sleep under an insecticide-treated bed net
                                                                     communication, and behavior
                                                                     change campaigns
                                                                     Indoor residual spraying of 284,196
  At least 90 percent of houses in targeted areas will be            houses across seven districts*
  sprayed according to the national vector-control guidelines        Training of 5,538 people to deliver
                                                                     indoor residual spraying
  At least 90 percent of all children under 5 suffering from
  malaria will receive timely, correct, and affordable treatment
  within 24 hours of the appearance of symptoms

  At least 90 percent of all cases of uncomplicated malaria in
                                                                     Training of 21,934 people in malaria
  health facilities will be treated in accordance with national
                                                                     prevention or treatment
  treatment policy

  At least 80 percent of patients who receive antimalarials in
  facilities will be parasitologically confirmed before treatment;
  80 percent confirmation in community settings
  At least 90 percent of malaria epidemics that are detected         Support for the Epidemic
  will be controlled within 2 weeks of detection                     Surveillance and Response System
* Audited

The Global Fund is the other principal donor working to reduce malaria-related deaths in
Rwanda, and since the Ministry of Health is the sole principal recipient of Global Fund grants in
Rwanda, NMCP is uniquely situated to coordinate donors’ activities. NMCP meets annually with
PMI officials to discuss the desired outcomes and division of activities for the upcoming year.
Then throughout the year, NMCP officials meet frequently with officials from both
USAID/Rwanda and implementing partners to discuss the status of planned activities,
challenges, and opportunities. For example, one of Rwanda’s desired outcomes is that at least
90 percent of households will possess at least one insecticide-treated bed net. To achieve this
goal, NMCP, in collaboration with PMI and other partners, plans bed net distributions and tracks
district needs. For the 2009–2010 malaria season, NMCP planned to distribute 5.1 million bed
nets—82 percent paid for through Global Fund grants, 17 percent paid for with PMI funds, and
1 percent paid for with funds from the U.S. Government designated for people living with
HIV/AIDS. To accomplish the desired outcome given the inventory in FY 2010, PMI had to
procure at least 300,000 bed nets with the allotments from all funding sources and assist with
transporting the bed nets to the sectors where the nets were needed. Other activities, such as
indoor residual spraying, are also coordinated with NMCP, but funded solely through PMI.

This coordination with NMCP is one of the reasons that USAID/Rwanda’s efforts to reduce the
malaria burden in the country have been successful. The mission is able to implement activities
that truly support the host country’s strategy and work effectively within the host country’s
systems. Also because of this relationship with NMCP, USAID/Rwanda’s PMI programs are in



                                                                                                                5
line with USAID efforts ―to strengthen partner country capacity to improve aid effectiveness and
sustainability by increasing use of reliable partner country systems and institutions to provide
support to partner countries.‖ The close relationship between the parties has already facilitated
knowledge transfer and continues to strengthen the host country’s systems to prepare them to
take ownership of more activities. For example, the Government of Rwanda will soon take over
data entry in the inventory management process, an activity currently performed by a PMI
partner.

Beneficiaries Were Unaware of the
U.S. Government’s Role in Malaria
Interventions
Ensuring that the American people are appropriately recognized for their generosity in funding
U.S. foreign assistance has been a long-standing U.S. Government objective. For example,
Section 641 of USAID’s framework legislation, the Foreign Assistance Act of 1961, codified as
amended in 22 U.S.C. 2401, specifies that all programs under the act be identified appropriately
as ―American Aid.‖ More recently, the United States’ post-September 11 national security
strategy increased the need for U.S. foreign assistance activities to be identified clearly in host
countries as provided by the United States. USAID’s Automated Directives System (ADS) 320,
authorized by the above legislation, guides the Agency’s branding and marking activities to help
achieve these objectives.

USAID/Rwanda and its PMI implementing partners have complied with the ADS 320
requirement that a branding and marking plan be developed and implemented for each
assistance activity. Nonetheless, beneficiaries—who, like most Rwandans, are generally aware
of USAID and its activities—were mostly unaware that USAID was funding indoor residual
spraying and a portion of the bed net distributions in their communities. An implementing
partner review conducted immediately following a recent round of indoor residual spraying
showed that, of the half of respondents who said they knew who the donor was, only 46 percent
correctly identified USAID. Interviews conducted during audit fieldwork, which in the selected
communities occurred almost a year after the most recent round of spraying and USAID-funded
bed net distributions, revealed that a much lower percentage could identify USAID as the donor.

Because indoor residual spraying and bed net distributions are infrequent events, generally
occurring once or twice a year in each community, and because USAID/Rwanda was
implementing these activities using host-country systems, the conventional USAID branding and
marking practices were not effective in this context. For example, the branding and marking
plan for the RTI indoor residual spraying contract calls for branding on program materials, such
as the cards distributed to residents (pictured on the next page) to show that their house has
been sprayed, and on equipment, such as spray operators’ pumps. Although this branding has
been implemented in Rwanda, it has not been effective in increasing beneficiaries’ awareness
of the U.S. Government’s role in this intervention, likely because of the infrequency of spray
activities. As for bed nets, the packaging in which they are distributed is standardized by the
Government of Rwanda. Appropriately, this packaging displays the logos of the various donors
alongside government logos. However, the result is that the individual receiving the bed net
does not know which donor funded its purchase.




                                                                                                 6
A resident in the Kirehe District shows his September 2010 spray card, which displays
the USAID logo. (Photo by Office of Inspector General, June 2011)

As noted above, because Rwandans have a general awareness of USAID and its activities, to
some extent the broader foreign assistance objective is being met. However, USAID/Rwanda
officials want to identify U.S. foreign assistance activities as being provided through a
partnership between the United States and Rwanda to the maximum extent practicable, while
striking a balance with the mission’s commitment to host-country ownership. To assist the
mission in achieving this objective, the audit makes the following recommendation.

   Recommendation 1. We recommend that USAID/Rwanda determine and document, in
   writing, its specific objectives for branding and marking within Rwanda’s President’s
   Malaria Initiative portfolio and update the current branding and marking plans if they do
   not currently achieve those objectives.




                                                                                               7
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Rwanda agreed with our recommendation. The
mission agreed to determine and document its specific objectives for branding and marking
within Rwanda’s PMI portfolio by March 30, 2012. Further, if the current branding and marking
plans are found not to meet those objectives, the mission will update those plans by June 30,
2012. As a result, a management decision has been reached on Recommendation 1.




                                                                                           8
                                                                                          Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards.5 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The objective of the audit was to determine whether USAID/Rwanda’s PMI implementation was
on schedule to achieve its main goal of reducing malaria-related deaths by 50 percent. Audit
fieldwork was conducted from June 20 to July 8, 2011.

In planning and performing the audit, we assessed USAID/Rwanda’s internal controls.
Specifically, we obtained an understanding of and evaluated the mission’s organizational
structure, contracting and assistance processes, monitoring and evaluation procedures, and
reporting processes.

We performed a review of USAID/Rwanda’s PMI strategy against the goals and targets set by
the U.S. Global Malaria Coordinator and the Government of Rwanda’s national malaria strategy.
We also selected three PMI-funded programs for detailed review. The three programs selected
were the RTI Indoor Residual Spraying 2 Project, JSI’s DELIVER PROJECT, and the PSI
Behavior Change and Social Media Project. As of June 30, 2011, USAID had obligated
$30.4 million and disbursed $17.6 million to these programs for PMI activities. In FY 2010,
these programs represented 73 percent of USAID’s PMI portfolio.

The selected PMI programs currently cover indoor residual spraying; the procurement and
distribution of insecticide-treated bed nets, lab equipment, and rapid diagnostic tests; the
packaging of combination drugs; and technical assistance activities. The selected programs do
not cover the procurement and distribution of combination drugs, because this is an activity
handled by the Government of Rwanda through Global Fund grants. Additionally, because of
increasing resistance and decreasing malaria prevalence, Rwanda has discontinued the use of
intermittent preventive treatment of malaria in pregnancy, and that intervention is not
addressed through the selected programs.

We conducted fieldwork in Kigali, where we interviewed key personnel at USAID/Rwanda,
implementing partners’ head offices, and NMCP. Implementing partners interviewed in Kigali
included officials from RTI, JSI, PSI, and Social & Scientific Systems, Inc.6 We also conducted
site visits at the central RTI warehouse, the PSI warehouse, and the distribution warehouse for
the Central Drug Purchasing Agency for Rwanda.7


5
  Government Auditing Standards, July 2007 Revision (GAO-07-731G).
6
  Social & Scientific Systems Inc. implements the Monitoring and Evaluation Systems Project. The
purpose of this project in Rwanda is to assist USAID and other U.S. Government agencies to develop and
implement a comprehensive performance management, monitoring, and reporting program.
7
  This agency, known by the French acronym CAMERWA, is the public institution for the procurement,
storage, and distribution of health commodities in Rwanda.


                                                                                                    9
                                                                                              Appendix I


 Rwanda has five provinces that are divided into 30 districts. Each district is then further split
 into sectors, cells, and villages. We designed our site visit procedures to include districts where
 the PMI program had funded both net distributions and indoor residual spraying within the
 previous year. Within those districts, we selected sectors with the highest numbers of structures
 sprayed and health facilities located in or near the selected sectors.

 We visited nine sectors in the Kirehe, Nyanza, and Bugesera Districts, which accounted for
 approximately 20 percent of the 303,659 structures treated with indoor residual spraying during
 the USAID-funded spraying campaign that started in August 2010 (Table I-1)8

                                        Table I-1. Sectors Visited

       District                    Sector                      Number of Structures Sprayed
                                  Nyamugali                               7,876
        Kirehe                     Gahara                                 7,681
                                   Mpanga                                 6,410
                                   Mukingo                                7,513
       Nyanza                    Busasamana                               6,790
                                   Busoro                                 6,744
                                   Ngeruka                                6,628
      Bugesera                      Rilima                                5,186
                                   Mareba                                 5,037
                        Total                                             59,865

 Additionally, we visited eight health facilities located in the Kirehe, Nyanza, and Bugesera
 Districts. As detailed in Table I-2, these health facilities received 77,545 of the 970,414
 (8 percent) insecticide-treated bed nets distributed with USAID funds in FY 2010.

                                   Table I-2. Health Facilities Visited

       District                 Health Facility                Bed Nets Received in FY 2010
                                   Gahara                                 7,207
        Kirehe                     Nasho                                  3,031
                                  Nyabitare                               3,246
                                  Gatagara                               13,340
       Nyanza                      Busoro                                 9,504
                                   Nyanza                                13,201
                                  Mareba*                                18,450
      Bugesera
                                    Rilima                                9,566
                        Total                                            77,545

* In FY 2010, the Mareba health facility received bed nets for distribution to both the Mareba and Ngeruka
Sectors.




 8
   By the end of FY 2010, spraying had been completed for only 284,196 of 303,659 structures.
 Therefore, USAID/Rwanda’s reported results reflect only 284,196 structures sprayed.


                                                                                                       10
                                                                                    Appendix I


Methodology
To answer the audit objective, we first obtained information to understand the malaria epidemic
in Rwanda, including data from the World Health Organization. We also reviewed applicable
laws, best practices, and guidelines. Specifically, we reviewed the Tom Lantos and Henry J.
Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria
Reauthorization Act of 2008 (Public Law 110-293); the Lantos-Hyde United States Government
Malaria Strategy 2009–2014; PMI publications; and USAID’s ADS chapters (ADS 201,
―Planning‖; ADS 202, ―Achieving‖; ADS 203, ―Assessing and Learning‖; ADS 302, ―USAID Direct
Contracting‖; ADS 303, ―Grants and Cooperative Agreements with Non-Governmental
Organizations‖; and ADS 320, ―Branding and Marking‖).

We then inquired about USAID/Rwanda’s PMI portfolio and reviewed documentation supporting
the inquiry. We judgmentally selected programs for in-depth review according to (1) award
amount, (2) start and end dates, and (3) PMI interventions addressed.

At USAID/Rwanda we met with officials responsible for the selected programs. As applicable,
we interviewed the team leaders, agreement officer’s technical representatives, activity
managers, and officials from the program and controller offices. We conducted these meetings
to assess mission personnel’s knowledge and implementation of PMI and USAID guidance and
requirements, and their general familiarity with the selected program’s activities. We reviewed
documentation provided by USAID/Rwanda, such as contract and agreement documents, work
plans, and performance reports, to determine the extent to which planned results were being
achieved. Testimonial evidence was evaluated in conjunction with other interviews, available
documentation, and site visits.

To assess the process for the procurement of commodities, we:

   Conducted interviews with officials from JSI, the implementing partner responsible for this
   activity. Through these interviews, we assessed the implementing partner’s knowledge and
   implementation of PMI and USAID guidance and requirements.

   Met with officials from the Central Drug Purchasing Agency for Rwanda and toured its
   distribution warehouse in Kigali to better understand the commodity supply chain and
   determine whether any problems had occurred with JSI’s delivery of commodities.

   Validated commodity procurement documentation provided by JSI by comparing it with
   commodity receipt records maintained by the Central Drug Purchasing Agency for Rwanda.

To assess the distribution of insecticide-treated bed nets, we:

   Conducted interviews with officials from PSI, the implementing partner responsible for this
   activity. Through these interviews, we assessed the officials’ knowledge and
   implementation of PMI and USAID guidance and requirements.

   Met with officials from the Central Drug Purchasing Agency for Rwanda and toured its
   distribution warehouse in Kigali to better understand the commodity supply chain and
   determine whether any problems had occurred with PSI’s bed net distribution activities.




                                                                                            11
                                                                                       Appendix I


   Visited the PSI warehouse in Kigali to further our understanding of the commodity supply
   chain and to assess the implementing partner’s warehouse management controls.

   Interviewed officials at selected health facilities to obtain their perspective on the bed net
   distribution process and its impact on malaria prevention. Additionally, we compared
   documentation of bed net distributions at the health facilities’ with distribution records
   maintained by PSI.

   Interviewed beneficiaries in selected sectors to evaluate bed net usage and to assess their
   awareness of USAID’s role in the distribution process.

To assess indoor residual spraying activities, we:

   Conducted interviews with officials from RTI, the implementing partner responsible for this
   activity. Through these interviews, we assessed the implementing partner’s knowledge and
   implementation of PMI and USAID guidance and requirements.

   On a sample basis, reviewed spray operator documentation maintained by RTI of the
   number of houses sprayed with IRS.

   Visited the RTI warehouse in Kigali to assess the implementing partner’s warehouse
   management and environmental controls.

   Met with beneficiaries, community health workers, and spray operators in selected sectors to
   corroborate the inquiry and review procedures performed with USAID/Rwanda and RTI.
   Additionally, we assessed beneficiaries’ awareness of USAID’s role in Indoor Residual
   Spraying activities.

We also reviewed PSI’s process for the packaging of combination drugs and looked for
evidence that JSI’s technical assistance activities were effective.

To assess the effectiveness of USAID/Rwanda’s overall PMI strategy, we compared the
mission’s malaria operational plan with guidance issued by the U.S. Global Malaria Coordinator
and the Government of Rwanda’s national malaria strategy. Interviews were also conducted
with the USAID/Rwanda PMI team and NMCP officials.

Finally, we reviewed the preliminary results from the 2010 Demographic and Health Survey and
data compiled by NMCP. We used these sources to quantify the impact of the PMI program on
malaria in Rwanda.

Given the nature of the audit objective, no materiality thresholds were established. Additionally,
since programs and site visits were selected judgmentally, results cannot be projected to the
mission’s PMI portfolio as a whole. Nonetheless, we believe evidence gathered during fieldwork
provided us sufficient means to answer our audit objective.




                                                                                               12
                                                                                     Appendix II



MANAGEMENT COMMENTS



                                                           October 24, 2011


MEMORANDUM

TO:           Byrne, Christine (PRETORIA/RIG)

FROM:         USAID/Rwanda Mission Director, Dennis Weller /s/

SUBJECT:      USAID/Rwanda Response to “Audit of USAID/Rwanda’s Implementation of the
              President’s Malaria Initiative” (Audit Report No. 4-696-12-XXX-P)

USAID/Rwanda appreciates the work of the Regional Inspector General (RIG) to prepare the
“Audit of USAID/Rwanda’s Implementation of the President’s Malaria Initiative” (Report
No. 4-696-12-XXX-P). The objective of this audit was to “determine whether
USAID/Rwanda’s implementation of PMI was on schedule to achieve its main goal of
reducing malaria-related deaths by 50 percent.”

USAID/Rwanda was pleased that the audit determined that the PMI program in Rwanda is on
schedule to achieve this goal. In addition, we believe that the report captures the key
achievements of the program to help reduce the malaria burden in Rwanda.

The report included two audit findings and one recommendation. The two audit findings in
the report include:
    1. Cooperation between USAID and the National Malaria Control Program (NMCP)
        helped reduce malaria deaths; and
    2. Beneficiaries were unaware of the U.S. Government’s role in malaria interventions.

Given USAID/Rwanda’s goal to support the Rwandan national malaria control program, we
are pleased with the audit team’s first finding that cooperation between USAID and the
NMCP helped reduce malaria deaths. This finding also highlights USAID efforts to
strengthen partner country capacity to improve aid effectiveness and strengthen host country
systems, which is an important component of the PMI program in Rwanda.




                                                                                               13
                                                                                    Appendix II


The second finding in the report notes that while USAID/Rwanda and our implementing partners
have complied with the ADS 320 branding and marking requirements, beneficiaries were
generally unaware of the U.S. Government’s role in malaria interventions, specifically indoor
residual spraying (IRS) and bed net distribution. Below is the Mission response to the audit
recommendation for this finding.

       Recommendation: We recommend that USAID/Rwanda determine and document, in
       writing, its specific objectives for branding and marking within Rwanda’s President’s
       Malaria Initiative portfolio and update the current branding and marking plans if
       they do not currently achieve those objectives.

USAID/Rwanda agrees with the finding that beneficiaries were unaware of the U.S.
Government’s role in malaria interventions. As the report accurately notes, while program
materials and packaging are appropriately branded, this may not be effective in increasing
beneficiaries’ awareness of the U.S. Government’s role. To address this issue, by March 30,
2012, USAID/Rwanda will determine and document the Mission’s specific objectives for
branding and marking within Rwanda’s PMI portfolio. If the current branding and marking
plans for current implementing mechanisms with PMI funding do not meet these objectives,
by June 30, 2012, USAID/Rwanda will update the branding and marking plans.




                                                                                               14
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
